OIG Investigative Reports, United States reaches a settlement with Keane regarding federal student financial aid fraud and false statements
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
August 12, 2008
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
Contact: (215) 861-8200
United States reaches a settlement with Keane regarding federal student financial aid fraud and false statements.
PHILADELPHIA - Acting Assistant United States Attorney Laurie Magid today announced
that the government has reached a settlement with Lisa Ann Keane, of Philadelphia,
to resolve alleged violations of the False Claims Act regarding federal student
loans. Keane will pay the United States $62,000 to resolve allegations that
she falsified federal student financial aid applications in order to obtain
college financial aid from the Department of Education ("DOE") for the benefit
of her sons.
The Higher Education Act authorizes the United States to offer student financial
assistance, including Pell Grants, Supplemental Educational Opportunity Grants,
and subsidized Perkins Loans and Stafford Loans. These programs are administered
by DOE and provide federal monies to eligible post-secondary students in financial
need. Eligibility is based on an evaluation of income. If a student has been
supported by his or her parents in the previous year, then the student is considered
a dependent student and both parents' income for the previous year is used to
determine financial need.
"The positive results achieved through this case, and cases like this one,
will help to send a message," said Magid. "The government is serious about protecting
the sanctity of the federal student financial assistance programs for those
individuals who are in true need of financial assistance."
According to the allegations in the Complaint filed today, during the school
years 1998 through 2003, Lisa Ann Keane fraudulently omitted her husband's income
in the federal student financial aid applications she filed on behalf of her
sons, thus, qualifying her sons for federal student financial aid to which they
were not entitled.
This case was investigated by Agent Geoff Wood of DOE's Office of Inspector
General and was handled by Assistant United States Attorneys Jacqueline Romero
and Virginia Powell.
Top
Printable view
Share this page
Last Modified: 08/22/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov